GR-90-98-038
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 

Office of Justice Programs, Bureau of Justice Assistance
Police Hiring Supplement Grant to the Richmond Police Department
California
 
GR-90-98-038
 
September 1998
 
 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an
audit of a grant awarded by the U.S. Department of Justice, Office of Justice Programs
(OJP), Bureau of Justice Assistance (BJA), to the Richmond Police Department (RPD),
California. The RPD received a grant of $944,883 to hire 9 additional police officers
under the Police Hiring Supplement (PHS) program. The purpose of the grant was to enhance
community policing efforts.

In brief, our audit determined:



The RPD supplanted the operating budgets for FYs 1995 through 1997 with
      PHS grant funds. The staffing level fell below the baseline sworn officer staffing number
      by nine positions for FY 1995, FY 1996, and FY 1997. The RPD charged the grant for sworn
      officer vacant positions, which resulted in unallowable costs of $944,883. 





The RPD did not enhance community policing activities with a number of
      sworn officers equal to the number of PHS grant-funded sworn officers.



The above items are discussed in the Findings and Recommendations section
of the report. Our audit scope and methodology are described in Appendix II.
#####